FILED

    

NRF AG 14/05/2019
ORG AAd Bowen Greenwood

(CLERK OF THE SUPREME COURT
‘STATE OF MONTANA

IN THE SUPREME COURT OF THE STATE OF MONTANA

DA 18-0607

IN RE THE ESTATE OF EDWARD M. BOLAND, . FILED
NOV 05 201

n Greenwood
Clerk of Supreme Court
‘State

Deceased,

of Montana:

“PAUL BOLAND and MARY GETTEL, as heirs
of the Estate of Dixie L. Boland,

 

Petitioners and Appellants, ORDER

v.

CHRIS BOLAND, BARRY BOLAND, ED BOLAND
CONSTRUCTION, INC., and NORTH PARK
INVESTMENTS, LLC,

Respondents and Appellees.

/ Appellants, Paul Boland and Mary Gettel, by and through their counsel, Thomas
Towe, have filed a Petition for En Banc Rehearing. Appellees have filed a response.

Pursuant to Section IV, Paragraph 2, of the Montana Supreme Court Internal
Operating Rules, “Any petition for rehearing shall be considered by those justices hearing the
case in the first instance.” This case was decided by a five-justice panel. Thus, the decision
for or against rehearing shall be made by the same five-justice panel which rendered the
decision. There is no provision in this Court’s internal operating rules allowing for an en
banc rehearing petition to be filed.

This Court rendered its Opinion in the above entitled action on October 3, 2019. The
Appellants have also filed a petition for rehearing. This Court will consider a petition for
rehearing presented only upon the following grounds: that the Court overlooked some fact
material to the decision; that the Court overlooked some question presented by counsel that
would have proven decisive to the case; or that the Court’s decision conflicts with a statute or
controlling decision not addressed by the Court. M. R. App. P. 20(1)(2).
Upon review of the Appellants’ Petition, this Court determines that none of the
conditions listed in M. R. App. 20(1)(a) have been met.

IT IS ORDERED that the Appellants’ petition for rehearing is DENIED.

ITIS FURTHER ORDERED that the Clerk of this Court give notice of this Order to
all counsel of record and to the Honorable Gregory G. Pinski, Presiding Judge.

DATED this s> day of Ouisben 2019.

a
Bad m ALL

Justices

 
